UNITFJ) STATES OF AMER!CI\

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Burc~u of Compc1i1ion

December 10, 2C07

Alden f'. J\bholt
J\ssnciute DircclOr

Direct I)ial
(202) 326·288 l

Mr. Alan L. Cohen
Vice President & General Counsel
Com1cil of Better Business Bureaus, Inc.
4200 Wilson Boulevard, Suite 800
Arlington, VA 22203-1838

Dear Mr. Cohen:
This Jetter responds to your request on be.half of the Council of Better Business Bureaus
("CBBB") for an advisory opinion regarding a proposed program to encourage increased
advertising of healthier choices and healthy lifestyles to children under 12. ' You have asked
whether, based on the facts submitted, the proposed program has any potential antitrnst
implications and is likely to result in an enforcement action by the Federal Trade Commission.
We have detennined that this matter is appropriate for a Bureau of Competition staff (..BC
staff'') opinion letter pursuant to Rule l.l(b) of the Commission's Rules ofPractice, 16 C.F.R. §
1. J(b). On the basis of infonnation that you provided in your letter of January 19, 2007, BC staff
have no present intention to recommend a challenge to implementation of the CBBB program as
proposed. This conclusion is entirely dependent on the accuracy of our.understandiug of
pertinent facts concerning the advertising program. Our understanding of those facts, in tum, is
entirely dependent on the infonnation that you provided. Our present enforcement inten1.io11s
might be different should the CBBB advertising program not be as described in your letwr and
other materials.

Background
We understand that the CBBB is the national organization for the Better Businefs
Bureau ("BBB") syslem whose goal is to foster tiust between businesses and consumers. The
CBBB administers the advertisiug industry's voluntary self-regulation program, which includes.
the National Adver1ising Division ("NAD") and the Children's Adve1tising Review Unil
("CARU"). We understand that NAD resolves complaints involving the truth or accuracy of

Letter of January 19, 2007 from Alan L. Cohen to Donald Clark, Secretaiy of th•~
Federal Trade Commission (hereafter cited as "Cohen Letter").
1

national advertising and CARU is a self~regulatory program that seeks to insure that advertising
intended for children is not deceptive, unfair or inappropriate.
You indicate that in recent years regulatory authorities and advocacy groups have
expressed concern about the growth of childhood obesity in the U.S. and tha.t these groups have
urged the food and beverage industry to change the mix of messages in their advertising directed
to children. We understand that these same groups have also expressed concerns about related
industry practices, such as the use of games that include advertising, licensed characters t:>
promote their products, product placement, and the marketing of food and beverage products in
schools. You indicate that the CBBB and the National Advertising Review Council conducted a
review of CARU standards and that the proposed Children's Food and Beverage Adverti.-ing
!nitiative2 ("Initiative") was designed to address the concerns that had been expressed.
We understand that the goal of the Initiative is to encourage children to make hea:·thier
dietary choices and pursue healthy lifestyles by changing the mix of advertising directed lo them.
You indicate that the program will be staffed by the CBBB and wilJ be open to any food 1>r
beverage advertiser. To participate in the Initiative an advertiser must agree to take the following
actions with respect to advertising primarily directed to children under 12:
"Devote at least half their advertising on television, radio, print and Internet to pmmote
healthier dietary choices andfor to messages that encourage good nutrition or healthy
lifestyles.
Limit products shown in interactive games to healthier dietary choices, or incorpc·rate
healthy lifestyle messages into the games.
Not advertise food or beverage products in elementaiy schools.

Not engage in food and beverage product placement in editorial and entertainment
content primarily directed to children under 12.
Reduce the use of third-party licensed characters in advertising that does not mee·.: the
Initiative's product or messaging cdtcria.''3
You indicate that as of January 19, 2007 a number of companies have already agreed to
participate in the lnitiative.4

We understand that each participant will draft a "Pledge" that will commit the co:npany
to devote more tban 50% of its advertising to children under 12 to:

2

An "Overview,'' entitled "Children's Food and Beverage Advertising Initiative," was
attached to the Cohen letter and sets out in some detail the elements of the Initiative.
3

Cohen letter, p. 2.

4

Cadbury Schweppes USA; Campbell Soup Company; The Coca-Cola Company:
General Mills, Inc.; The Hershey Company_; Kellogg Company; Kraft Foods Inc.; McDonald's;

PepsiCo, Inc.; and Unilever.

a) products that represent healthy dietary choices in accordance with standards consistent
with established scientific/government standards5 , and/or
b) advertising that prominently includes healthy lifestyle messages designed to appeal to
the intended audience. 6
You ir;dicate that the Pledge will be developed by each participant in consultation with Initiative
staff, who will also monitor compliance with each company's Pledge. The staff will revfow
advertising materials, product infonnation, and media impression information submitted by each
participant. We understand that information submitted by participants on a confidential basis will
not be shared with other participants or outside groups. You indicate that the Initiative will
publicly disclose the results of its monitoring, will develop procedures for expulsion of a
participant that does not comply with its Pledge, and will publicly disclose any expulsion:;, with
a refen·al made to regulatory authorities.

Analysis of CBBB's Proposed Initiative
The value of trnthful, non-deceptive advertising has been recognized by the Commission
and the courts, as has the ham1 that may be suffered by consumers when such tmthful
advertising is limited by agreement among firms in an industry. 7 However, the antitmst hws do

5

Examples of govemment standards provided in the Overview are:

- FDA defined "healthy" foods [ CFR 10l.65(d)(2)];
-Products that qualify for an FDA authorized health claim [CFR 101.70-101.83]
--- Products meeting FDA/USDA criteria for claims of "free," "low," or "reduced" calorie:>, total
fat, saturated fat, sodium or sugar
- Products that qualify for the USDA Healthier School Challenge Program criteria for
Sales/Service of A La Carte and/or Vended Items
- Principles addressing recommended consumption by children tmder 12 under USDA Dietary
Guidelines and My Pyramid
-- Products rnpresenting a portion control option, such as products advertised and sold in .1
package size of 100 calories or less_

6

Examples given in the Overview include:

- messaging that encourages physical activity
·--messaging that encourages good dietary habits, consistent with established scientific and/or
government standards such as USDA Dietary Guidelines and My Pyramid

Truthful, non-deceptive advertising promotes competition by providing consumr~rs with
important infonnation about product prices, quality, and availability, among other facton. that
consumers consider in their purchasing decisions. See, e.g., Virginia State Board ofPlw:wacy v.
Virginia Citizens Consumer Council, Inc_, 425 U.S. 748, 765 ( 1976). Agreements on standards
among competitors that restrict truthful, nondeceptivc adver6sing, therefore, have the pO'.':ential
7

not forbid legitimate self-regulation that benet1ts consumers. As the Commission has stat~,
"[s]uch self-regulatory activity serves legitimate purposes, and in most cases can be expe1;ted to
benefit, rather than to injure, competition and consumer welfare."8
BC staff typically analyze agreements among firms that may lead to restrictions on some
fonns of advertising under the "rule of reason" test rather than the per se test. 9 Under a mle of
reason test, BC staff weighs the potential for competitive harm arising from an agreement among
competitors against any procompeti tive or efficiency benefits produced by the agreement. If BC
staff concludes that the procompetive benefits more than offset the likely competitive harm, BC
staff will not pursue an enforcement action. Given the facts as we tmderstand them in this
instance, it is unlikely that BC staff would conclude that potential anticompetitive effects arising
from the implementation of the CBBB Initiative would outweigh procompetitive benefits. We
find therefore that the CBBB Initiative does not warrant a staff recommendation to the
Commission for enforcement action at this time . We reach this conclusion for a number :>f
reasons.
First, CBBB's adoption of the proposed Initiative would not create an agreement :uuong
fim1s to restrict advertising. Based on the information supplied, it appears that any agreement
would be voluntruy, would be between an individual finn and the CBBB Initiative, and would
alter the mix of advertising but not limit its amount in any way. The Initiative would enc<>urage
individual self-restraint by firms but would not establish a regime of self-regulation among firms
in an industry. Limitations on output and advertising, and increased prices to consrnners ure the
traditional concerns of antitrust; it docs not appear that the Initiative has the potential to cause
harm to consumers in either respect.
Second, the CBBB Initiative appears to have a significant pro-consumer rational<: by
by encouraging adve11ising that may encourage children under 12 to select foods or or beverages
that may be the healthiest available. According to the Cohen letter and the accompanying
document outlining the Initiative, the oveniding goal of the proposed program is to change the
mix of messages i11 food and beverage adve:1ising and other promotional efforts directed to
children in order to confront a national health issue. If successful, it appears that the lniti<itive
may make a contribution to that goal without creating any hann to consumers that might flow
from a reduction in competition.

to restrict competition and harm consumers. See, e.g., American Medical Association, 96. F.T.C.
at 1005.
8

America11 Academy of Ophthalmology, 101F.T.C1018 (1983) (advisory opinion); see

also American Medical Association, 117 F.T.C. 1091 (1994) (advisory opinion); Ameriw11

Medical Association, 94 F.T.C . 701, 1029 (1979), ajf'd as modified, 638 F .2d 443 (2d Cir. 1980),
affd by an equaf~v divided Court, 455 U.S. 676 (1982).
9

Specifically, BC staff's analysis follows the framework set out in the Federal Trade
Commission/Depar1ment of Justice Guidelines for Collaborations Among Competitors, <Jvailable
at http://www.ftc.gov/os/2000/04/ftcclojguidclines.pdf, and in the Commission's decision in In re
Po~vgram Holding. Inc., Dkt. No. 9298 (2003), 2003 WL 2170765 (F.T.C.), aff'd, Po(l-7~ram
Holding, Inc. v. FTC, 416 F.3d 29 (D.C. Cir. 2005).

Conclusion
For the reasons stated above, we believe that. on balance, the likely benefits ofCBBB's
proposed Initiative more than offset any potential for competitive hann. On this basis, BC staff
have no present intention to recommend a challenge to CBBB 's Initiative.
This letter sets out the views of the staff of the Bureau of Competition, as authorized by
Rule l.l(b) of the Commission's Rules of Practice, 16 C.F.R. § 1. l(b). Under Commission Rule
l .3(c), 16 C.F.R. § l .3(c), the Commission is not bound by this staff opinion and reserves the
right to rescind it at a later time. In addition, this Office retains the right to reconsider the
questions involved and, with notice to the requesting party, to rescind or revoke the opinion if
implementation of the proposed program results in substantial anticompetiutive effects, if the
program is used for improper purposes, if facts change significantly, or if it would be in ti1e
public interest to do so.
Sincerely yours,

Alden F. Abbott

Associate .Director

